App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-50766
Summary Calendar

FILED August 2, 2019
IRMA ROSAS,
Plaintiff - Appellant,
v.
SAN ANTONIO HOUSING AUTHORITY, also
known as SAHA; NRP GROUP, L.L.C.; UNION
PACIFIC RAILROAD; TEXAS RIOGRANDE
LEGAL
AID,
INCORPORATED;
BEXAR
COUNTY, TEXAS; CITY OF SAN ANTONIO,
Defendants - Appellees.

Appeal from the United States District Court
for the Western District of Texas
USDCNo. 5:18-CV-537

Before REAVLEY, JONES, and GRAVES, Circuit
Judges.

App. 2
PER CURIAM:*
We affirm the district court’s judgment for
the reasons explained by that court.

* Pursuant to 5th CIR. R. 47.5, the court has
determined that this opinion should not be
published and is not precedent except under the
limited circumstances set forth in 5th CIR. R.
47.5.4.

UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
IRMA ROSAS,
Plaintiff,
v.
SAN ANTONIO
HOUSING
AUTHORITY ET AL„
Defendants.

§
§
§
§
§
§
§
§

§
§
§

ORDER

Civil Action No.
SA-18-CV-537-XR

App. 3
On this date the Court considered United
States Magistrate Judge Henry J. Bemporad’s
Report

and

Recommendation

in

the

above-

numbered and styled case, filed August 10, 2018,
. (Docket no. 8) and Plaintiff Irma Rosas’s objections
thereto (Docket no. 10). After careful consideration,
the Court ACCEPTS Magistrate Judge Bemporad’s
recommendation. The Court DENIES Plaintiffs
Motion to Toll Statutes of Limitations (Docket no.
6) and DISMISSES this action as barred by
limitations.

BACKGROUND
Plaintiff, acting pro se, filed her Complaint
on May 31, 2018. Docket no. 1. Plaintiff was
granted leave to proceed IFP on June 8, 2018.
Docket no. 4. Plaintiff bought this action after she
was evicted from her apartment located in the San
Juan Square II (“SJS”) multi-family housing
complex in San Antonio, Texas. Plaintiff alleges
that SJS is co-owned by Defendants the San

App. 4
Antonio Housing Authority (“SAHA”) and the NRP
Group, LLC (“NRP”). Docket no. 5 at 1.
Plaintiff states she signed her first one-year
lease on August 30, 2011. Id. Plaintiff alleges that
NRP harassed her about her lease renewal in early
June 2012, despite the fact that she was not
required to provide an answer about renewal until
June 30. Id. at 2. Plaintiff states she signed the
“Annual Eligibility Certification” on June 5, 2012,
but she refused to sign a second one-year least at
that time. Id. Plaintiff alleges she signed the
second one-year lease with SAHA and NRP on
June 21, 2012, under duress and when she had no
source of income. Id. Plaintiff states that after she
did not receive student loans in the fall of 2012 and
found no employment, she fell behind on her rent.
Id. at 3. Eviction proceedings began in June 2013.
On January 22, 2014, Plaintiff alleges she returned
to her apartment around 6:00 p.m. to find a “Notice
of Surrendered / Seized Property” on her door,
stating that “all of her belongings had been placed
outside the property and her dog had been taken to
the animal shelter.” Id. at 3.

App. 5
Plaintiff brings claims SAHA and NRP for
providing sub-standard housing that she could not
peacefully enjoy, adding to her electric and water
costs, and forcing her to sign a second-year lease.
Id. at 13. She brings claims against Defendant
Union Pacific Railroad for affecting the peaceful
enjoyment of her unit, disrupting her daily life, and
affecting her physical and mental health. Id. She
brings claims against Defendant Texas RioGrande
Legal Aid, Inc. for denying an immediate remedy to
signing a contract under duress. Id. She brings
claims against Bexar County, Texas for denying
her access to procedural due process, affecting her
mental health, and evicting her, which resulted in
her loss of property. Id. She brings claims against
the City of San Antonio for forcing her to mutilate
her dog and affecting her mental health. Id.
On

June

8,

2018,

Magistrate

Judge

Bemporad issued a Show Cause order in this case,
requiring Plaintiff to demonstrate why her case
should not be dismissed. Docket no. 4. The order
explained that a two-year statute of limitations
would apply to any state tort or related § 1983

App. 6
claim, and that a four-year statute of limitations
would apply to any breach of contract claim. The
latest date relevant to Plaintiffs allegations was in
January 2014, and thus, it appeared that her filing
a complaint on May 31, 2018, was beyond the
applicable statutes of limitations. The order also
explained that Plaintiff failed to state legal causes
of action against Texas RioGrande Legal Aid, Inc.
for refusing to provide her legal services.
On June 29, 2019, Plaintiff responded to the
show cause order by filing her Motion to Toll
Statutes of Limitations. Docket no. 6. First,
Plaintiff states that she erroneously filed a cause of
action in the United States District Court for the
Northern District of Illinois on September 15, 2017,
and that the case was dismissed without prejudice
for lack of proper venue. Id. at 1; see Rosas v.
Abbott, et al., No. l:17-CV-6660, Order (N.D. Ill.
Feb. 14, 2018) (dismissing case without prejudice
under 28 U.S.C. § 1406(a)). Second, Plaintiff alleges
that “her mental health stood in her way and
prevented timely filing after she was evicted on
January 22, 2014.” Docket no. 6 at 1. She alleges

App. 7
that she received mental health treatment for
depression from 2004 to 2011, contemplated suicide
on three occasions from 2011 to 2013, and was
psychologically traumatized by her eviction and
isolated herself in her mother’s house without
working from January 2014 to November 2017. Id.
at 2. For these reasons, Plaintiff requests the Court
to toll the statutes of limitations so that they may
move forward with her claims. Id.
Magistrate Judge Bemporad issued his
Report and Recommendation on this case on
August 10 2018. Docket no. 5. Judge Bemporad
found that Plaintiffs claims, construed as tort,
related § 1983, and breach of contract claims, are
time-barred and the Court should not equitably toll
the

statute

of limitations.

Judge

Bemporad

reiterated that Plaintiffs remaining claims should
be dismissed for failing to state a legal cause of
action.
Pursuant to Rule 72(b), the parties were
given fourteen days to file written objections to the
Report and Recommendation. Plaintiff timely filed

App. 8
an objection. Docket no. 8. On August 22,-2018,
Plaintiff

objects

to

Judge

Bemporad’s

recommendation that this case should be dismissed
because several of her claims are time-barred and
that she should not benefit from equitable tolling.

LEGAL STANDARD
Where

no

party

has

objected

to

the

Magistrate Judge’s Report and Recommendation,
the Court need not conduct a de novo review of it.
See 28 U.S.C. 636(b)(1) (“A judge of the court shall
make a de novo determination of those portions of
the report or specified proposed findings and
recommendations to which objection is made.”). In
such cases, the Court need only review the Report
and Recommendation and determine whether it is
either clearly erroneously or contrary to law.
United States v. Wilson, 864 F.2d 1219, 1221 (5th
Cir. 1989). On the other hand, any Report of
Recommendation that is objected to requires de
novo review. Such a review means that the Court

App. 9
will examine the entire record and will make an
independent assessment of the law. The Court need
not, however, conduct a de novo review when the
objections are frivolous, conclusive, or general in
nature. Battle v. United States Parole Commission,
834 F.2d 419, 421 (5th Cir. 1987). Additionally,
“[pjarties filing objections must specifically identify
those finding objected to.” Nettles v. Wainwright,
677 F.2d 404, 410 n.8 (5th Cir. 1982).
Plaintiff filed her objection to the Magistrate
Judge’s recommendations as to some of her claims
being time-barred before the expiration of the
fourteen-day deadline. As a result, the Court now
conducts a de novo review of those claims.

ANALYSIS

When a plaintiff seeks to proceed in forma
pauperis, a court, “shall dismiss the case at any
time if the court determines” that the action or
appeal is frivolous or fails to state a claim on which
relief may be granted. 28 U.S.C. § 1915 (e)(2). An

App. 10
action is “frivolous” if “it lacks an arguable basis
either in law or in fact.” Neitzke v. Williams, 490
U.S. 319, 325 (1989).
A district court may dismiss claims sua
sponte under § 1915 if it is clear from the face of
the complaint that the claims are barred by the
applicable

statute

of

limitations.

Harris

v.

Hegmann, 198 F.3d 153, 156 (5th Cir. 1999). In this
case, it is clear from the face of Plaintiffs complaint
that most of her claims are barred by the statute of
limitations. The Court reads Plaintiffs complaint
to assert potential tort claims, breach of contract
claims, and § 1983 violations. Under Texas law,
there is a two-year statute of limitations for a
plaintiff to bring suit for personal injury or injury
to her personal property. TEX. CIV. PRAC. &
REM. CODE. § 16.003; see also Schneider v. [sic]
Nat. Carriers, Inc. v. Bates, 147 S.W.3d 264, 270
(Tex. 2004) (holding that the limitations period for
nuisance claims is also two years). For § 1983
claims,1 because there is no specific statute of
limitations for such claims, courts should look to
the most analogous state statute of limitations.

App. 11
Owens v. Okure, 488 U.S. 235, 239 (1989). In Texas,
the analogous limitations period is the statutory
two-year period applicable to personal injury
claims. Piotrowski v. City of Houston, 237 F.3d 567,
576 (5th Cir. 2001). The statute of limitations to
bring a breach of contract claims is four years. TelPhonic Servs., Inc. v. TBS Inti, Inc., 975 F.2d 1134,
1142 (5th Cir. 1992); see also TEX. CIV. PRAC. &
REM. CODE § 16.051.
Based on Plaintiffs complaint and response
to the show cause order, her claims accrued at the
latest in January 2014. Thus, when she filed her
complaint on May 31, 2018, she filed it well beyond
the applicable statutes of limitations, the longest
which was four years. Plaintiffs only objection to
the Magistrate Judge’s finding that her claims are
time-barred is that the litigants in the cases cited
did not suffer from disabilities similar to those from
which

she

allegedly suffers.

This

argument,

however, is relevant to the questions of equitable
tolling. Thus, the Court finds that Plaintiffs claims
against SAHA, NRP, Union Pacific Railroad, Bexar

App. 12
County, and the City of San Antonio are timebarred.
First, Plaintiff argues the applicable statute
of limitations should be tolled during the pendency
of her case in the Northern District of Illinois.
Under Texas law,

the

applicable

statute

of

limitations is suspended “between the date of filing
an action in a trial court and the date of a second
filing of the same action in a different court” if “(1)
because of lack of jurisdiction in the trial court
where the action was first filed, the action is
dismissed or the judgment is set aside or annulled
in a direct proceeding; and (2) not later than the
60th day after the date the dismissal or other
disposition becomes final, the action is commenced
in a court of proper jurisdiction.” TEX. CIV. PRAC.
& REM. CODE § 16.064(a). Although Plaintiffs
case in the Northern District of Illinois was
dismissed for improper venue, for those claims with
a two-year statute of limitations period, limitations
ran in January 2016 at the latest. Plaintiff did not
file her complaint in the Northern District of
Illinois until September 2017. With regard to

App. 13
Plaintiffs breach of contract claim, which carries a
four-year statute of limitations, she is not entitled
to tolling under § 16.064 because she did not
commence the case before this Court within sixty
days of dismissal of the Illinois case. Thus, Plaintiff
is not entitled to tolling under § 16.064.
Second, Plaintiff argues she is entitled to
equitable tolling due to her mental health and
because

she was psychologically traumatized,

isolated herself in her mother’s house, and did not
work. Equitable tolling is a court-created doctrine
“that excuses a timely filing when the plaintiff
could not, despite the exercise of reasonable
diligence, have discovered all the information [she]
needed in order to be able to fill [her] claim on
time.” In re United Servs. Auto. Ass’n, 307 S.W.3d
299, 311 (Tex. 2010) (quoting Taliani v. Chrans,
189 F.3d 597, 597 (7th Cir. 1999)). Further, a court
may equitably toll the limitations period for § 1983
claims,

and “[b]ecause the Texas

statute of

limitations is borrowed in § 1983 cases, Texas’
equitable tolling principles also control.” Rotella v.

App. 14
Pederson, 144 F.3d 892, 897 (5th Cir. 1998). The
plaintiff bears the burden of showing that equitable
tolling is warranted. Id. at 894-95.
Although

Plaintiff argues

for equitable

tolling, the basis for her tolling argument due to
her mental health is grounded in Texas law. “If a
personal entitled to bring a personal action is
under a legal disability when the cause of action
accrues, the time of the disability is not included in
a limitations period.” TEX. CIV. PRAC. & REM.
CODE § 16.001(b). A person is under a legal
disability if the person is of “unsound mind.” Id. §
16.001(a)(2). Section 16.001(a)(2) is intended “to
protect a person of unsound mind by insuring that
a legally disabled person’s right to bring suit will
not be precluded by a statute of limitations, prior to
removal of the disability.” Doe v. Catholic Diocese of
El Paso, 362 S.W. 3d 707, 722 (Tex. App. - El Paso
2011, no pet.) (citing Ruiz v. Conoco, Inc., 868
S.W.2d 752, 755 (Texas. 1993)). The statutory
tolling provision applies to someone “who suffers
from an inability to participate in, control, or

App. 15
understand the progression and disposition of their
lawsuit.” Id.
Plaintiff allegedly received mental health
treatment for depression and contemplated suicide,
but these claims do not entitle her to tolling
because they took place from 2004 to 2011 and
2011 to 2013, respectively, and the cause of action
did not accrue until 2014. Plaintiff alleges she was
psychologically traumatized from her eviction,
isolated herself in her mother’s house, and did not
work from January 2014 to November 2017. The
evidence shows, however, that Plaintiff did not
suffer from an inability to participate in, control, or
understand the progression of her lawsuit. Plaintiff
was able enough to pursue her case by filing the
first action in the Northern District of Illinois in
September 2017, which included several claims
similar to those that Plaintiff brings in this case.
Plaintiff has provided no further evidence beyond
the statements that she isolated herself in her
mother’s house and did not work to demonstrate
that she was of unsound mind such that she is
entitled to tolling. Thus, the Court finds that

App. 16
Plaintiff is not entitled to statutory tolling, nor has
she demonstrated that she is entitled to equitable
tolling of any kind. Accordingly, Plaintiffs claims
are barred by limitations.
Finally, the Court also dismisses Plaintiffs
claim against Texas RioGrande Legal Aid, Inc. As
discussed above,

Magistrate Judge

Bemporad

ordered Plaintiff to show cause on her claim
against Texas RioGrande Legal Aid, Inc. for
refusing to provide legal services because Plaintiff
failed to allege a legal duty owed by the agency.
Plaintiff did not respond to the show order on this
claim, and the Court now finds that Plaintiff fails
to state a valid claim for relief against Texas
RioGrande Legal Aid, Inc. See Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555-56 (2007).
CONCLUSION
For
ACCEPTS

the

foregoing
the

recommendations.

reasons,

the

Magistrate
Plaintiffs

Motion

Court
Judge’s

to

Toll

Statutes of Limitations (Docket no. 6) is DENIED.

App. 17
Plaintiffs claims are hereby DISMISSED WITH
PREJUDICE as barred by limitations and for
failure to state a claim. The Clerk is directed to
CLOSE this case.
It is so ORDERED.
SIGNED this 28th day of August, 2018.
Is/.

XAVIER RODRIGUEZ
UNITED STATES
DISTRICT JUDGE

UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
August 30,2019

MEMORANDUM OF COUNSEL OR PARTIES
LISTED BELOW:
No. 18-50766

Irma Rosas v. San
Antonio Housing
Authority, et al
USDC No. 5-.18-CV-537

App. 18
Enclosed is an order entered in this case.
See FRAP and Local Rules 41 for stay of the
mandate.
Sincerely,
LYLE W. CAYCE, Clerk

Isl.
By:
Renee S. McDonough, Deputy
Clerk
504-310-7673
Ms. Irma Rosas
Ms. Leigha Amy Simonton
Mr. John J. Stickney
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-50766

IRMA ROSAS,
Plaintiff - Appellant
v.

App. 19
SAN ANTONIO HOUSING AUTHORITY, also
known as SAHA; NRP GROUP, L.L.C.; UNION
PACIFIC RAILROAD; TEXAS RIOGRANDE
AID,
INCORPORATED;
BEXAR
LEGAL
COUNTY, TEXAS; CITY OF SAN ANTONIO,
Defendants - Appellees

Appeal from the United States District Court
for the Western District of Texas

ON PETITION FOR REHEARING EN BANC
(Opinion August 2, 2019, 5 Cir.,

F.3d___)

Before REAVLEY, JONES, and GRAVES, Circuit
Judges.
PER CURIAM:
( V)

Treating the Petition for Rehearing En Banc

as a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. AND 5th CIR.

App. 20
R. 35), the Petition for Rehearing En Banc is
DENIED.
(

)

Treating the Petition for Rehearing En Banc

as a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members of
the court and a majority of the judges who are in
regular active service and not disqualified not
having voted in favor (FED. R. APP.P and 5th CIR.
R. 35), the Petition for Rehearing En Banc is
DENIED.

ENTERED FOR THE
COURT:
/s/
UNITED STATES
CIRCUIT JUDGE

United States Court of Appeals
Fifth Circuit
Office of the Clerk

March 12, 2019

App. 21
Ms. Irma Rosas
6333 S. Lavergne Avenue
Chicago, Illinois 60638
No. 18-50766

Irma Rosas v. San
Antonio Housing
Authority, et al
USDCNo. 5:18CV-537

Dear Ms. Rosas,
We filed your brief. However, you must make
the following corrections within the next 14 days.
You may:
1. Send someone to this office to correct the
briefs;
2. Send someone to pick up the briefs, correct
and return them;
3. Send a self-addressed stamped envelope
and we will return your briefs, (we will tell you the
postage cost on request). You must then mail the
corrected briefs to this office;
4. Send corrected briefs and we will recycle
those on file.
You need to correct or add:

App. 22
Caption on the brief does not agree with the
caption of the case in compliance with FED. R.
APP. P. 32(a)(2)(C). Caption must exactly match
the Court’s Official Caption (See Official Caption
below)
Certificate of interested persons, see 5th CIR. R.
28.2.1.
Statement of Facts must be included in the
Statement of the Case. A concise statement of the
case setting out the facts relevant to the issues
submitted for review, see FED. R. APP. P. 28(a)(6).
The facts should be incorporated within, or as a
subsection of, the ‘Statement of the Case’. A
separate ‘Statement of the Facts’ is not acceptable.
Signature, see FED. R. APP. P. 32(d). Brief must be
signed, as well as the certificate of service and
certificate of compliance.
Sufficient number of paper copies to meet the seven
(7)

copy

requirement.

You

must

provide

additional copies, (see 5th CIR. R. R. 31.1)

7

App. 23
We have not received 4 copies of the Record
Excerpts required by 5th CIR. R. 30.1.2.

Your appendix needs to be removed from the brief.
The only attachments allowed to the briefs without
leave of court are statutes, rules, regulations, etc.
See FED. R. APP. P. 28(f).
Record References: Although your brief contains
citations to the record, they are not in proper form.
Every assertion in the briefs regarding matter in
the record must be supported by a reference to the
page number of the original record, whether in
paper or electronic form, where the matter is found,
using the record citation form as directed by the
Clerk of Court. The use of “id” is not permitted
when citing to the record on appeal. (See 5th CIR.
R. 28.2.2)
Sincerely,
LYLE W. CAYCE, Clerk
By:

/s/

App. 24
Renee S. McDonough,
Deputy Clerk
504-310-7673

